OIG Investigative Reports, Student Aid Fraud Sends Woman to Federal Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE
January 22, 2007
http://www.usdoj.gov/usao/alm
U.S. Department of Justice
United States Attorney Leura G. Canary
Middle District of Alabama
CONTACT: Retta Goss
Telephone: (334) 223-7280
Fax: (334) 223-7560
retta.goss@usdoj.gov
Cell: (334) 546-1930
Student Aid Fraud Sends Woman to Federal Prison
30 Months Imprisonment for Student Aid Scheme
MONTGOMERY, ALABAMA―Bridget Y. Taylor, 36, of Tulsa, Oklahoma was sentenced
today before United States District Judge Myron Thompson. Judge Thompson sentenced
Taylor to 30 months imprisonment and ordered over $9,000.00 in restitution.
In August of 2006, Taylor was indicted for violations of Title 18, United States
Code, Section 1344 and 1014. These federal statutes criminalize Bank Fraud and
Loan and Credit Fraud. According to the Indictment, in October 2000, Taylor
executed a scheme to defraud Regions Bank in order to obtain funds, moneys or
credit by falsifying federal student loan applications with false names and
false social security numbers. Taylor used the money to pay for school related
expenses at Auburn University Montgomery and Alabama State University. In addition,
she used excess funds for her own personal gain. In October, 2006, Taylor pleaded
guilty to all counts listed in the Indictment.
At today's sentencing, Judge Thompson rejected Taylor's argument that her criminal
behavior was caused by a difficult upbringing. Rather, Judge Thompson focused
on Taylor's criminal behavior over the last 15 years and ability to scheme money
from others.
According to United States Attorney Leura Canary, "Thirty months in federal
prison underscores the seriousness of abusing a federal program designed to
help people get an education. This sentence is a warning to others who think
student loan fraud is easy money."
This case was investigated by the Department of Education, Office of Inspector
General, and prosecuted by Assistant United States Attorney Verne H. Speirs.
Top
Printable view
Share this page
Last Modified: 02/20/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov